<html>
<title> - EVALUATE THE PRESIDENT'S USE OF THE LINE ITEM VETO AUTHORITY FOR MILITARY CON- STRUCTION FISCAL YEAR 1998 APPROPRIA- TIONS</title>
<body><pre>[Senate Hearing 105-258]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-258


 
                 EVALUATE THE PRESIDENT'S USE OF THE LINE 
                   ITEM VETO AUTHORITY FOR MILITARY CON-
                   STRUCTION FISCAL YEAR 1998 APPROPRIA-
                   TIONS

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                     U.S. GOVERNMENT PRINTING OFFICE
44-300 cc                    WASHINGTON  :  1997

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


                        COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
           James H. English, Minority Staff Director<greek-l>


                            C O N T E N T S

                              ----------                              
                                                                   Page

Statement of Maj. Gen. Clair F. Gill, USA, Director of Army 
  Budget.........................................................     1
Statement of Maj. Gen. Eugene Lupia, Air Force Civil Engineer....     1
Statement of Rear Adm. James F. Amerault, USN, Director of Navy 
  Budget/Fiscal Management.......................................     1
Opening statement of Hon. Ted Stevens............................     1
Statement of Hon. Robert C. Byrd.................................     2
Remarks by the President in line item veto message...............     4
Statement of Hon. Conrad Burns...................................     5
Statement of Hon. Patty Murray...................................     7
Statement of Hon. Pete Domenici..................................     8
Statement of Hon. Daniel K. Inouye...............................     9
    Prepared statement...........................................     9
Statement of Hon. Larry Craig....................................    10
    Prepared statement...........................................    11
Statement of Hon. Dale Bumpers...................................    12
Statement of Hon. Harry Reid.....................................    13
Statement of Hon. Robert Bennett.................................    13
Statement of Hon. Barbara Boxer..................................    14
Prepared statement of Senator Lauch Faircloth....................    26
Letter from Brig. Gen. Jerry L. Laws, Commanding General, 
  Department of the Army, Department of Defense..................    27
Prepared statement of Senator Richard C. Shelby..................    28



   EVALUATE THE PRESIDENT'S USE OF THE LINE ITEM VETO AUTHORITY FOR 
         MILITARY CONSTRUCTION FISCAL YEAR 1998 APPROPRIATIONS

                              ----------                              


                       THURSDAY, OCTOBER 9, 1997

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:04 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Domenici, Bond, Gorton, 
McConnell, Burns, Bennett, Craig, Faircloth, Hutchison, Byrd, 
Inouye, Leahy, Bumpers, Lautenberg, Reid, Murray, and Boxer.

                         DEPARTMENT OF DEFENSE

STATEMENTS OF:
        MAJ. GEN. CLAIR F. GILL, USA, DIRECTOR OF ARMY BUDGET
        MAJ. GEN. EUGENE LUPIA, AIR FORCE CIVIL ENGINEER
        REAR ADM. JAMES F. AMERAULT, USN, DIRECTOR OF NAVY BUDGET/
            FISCAL MANAGEMENT


                 opening statement of hon. ted stevens


    The Chairman. This committee meets today for the first time 
to evaluate the President's use of the line item veto 
authority. I have called this hearing after consultation with 
Senator Byrd because of the way that President Clinton used 
this new prerogative, the line item veto. We want to assess 
whether that tool was used as intended by Congress to eliminate 
wasteful or unnecessary spending.
    The projects the President has impounded from the military 
construction bill fail to meet that standard in our judgment. 
In June the President reached a budget agreement with the 
bipartisan leadership of Congress. Our colleague, Senator 
Domenici, was the key architect of that pact. That agreement 
provided an increase of $2.6 billion for national defense over 
the amount requested in the President's budget for fiscal year 
1998. We did not receive any new budget requests based upon the 
increased budget limit.
    The President's action on the military construction bill 
reneges on the budget agreement he reached with the Congress. 
He did not strike that agreement with the Appropriations 
Committees. We were not permitted in that room. We were given 
our spending caps under the agreement, and we presented the 
Senate with 13 bills consistent with the spirit, terms, and 
limits of the revised budget. We upheld our end of that 
agreement; the President has not.
    The procedures under the Line Item Veto Act, Public Law 
104-130, afford Senators 5 days to introduce a disapproval 
bill. Any such bill will be referred to this committee and we 
have 7 session days to review and report any such bill. After 
that, we would be automatically discharged.
    Today's hearing is intended to afford the committee a 
chance to review the status of these projects in the military's 
future budget plans and their executability in 1998's fiscal 
year. We have asked these witnesses today to be prepared to 
answer questions about the 38 projects on the President's list. 
We seek only factual information about the projects. I will not 
ask the witnesses to defend any project or the President's 
decision. They may do so if they wish.
    This committee based its original decision on these 
projects on the facts and information we obtained from the 
Department of Defense. Before preceding further, we want to 
establish on the record these issues so that any further action 
can be guided by merit, need, and timeliness of the projects 
under consideration.
    Admiral Amerault, General Lupia, and General Gill, we all 
thank you for your willingness to appear here on very short 
notice. This is a very short timeframe in this new act. We did 
not ask for any prepared statements from you today, and we will 
turn to questions to you following any statements by the 
members.
    I will also announce that just as a matter of procedure 
such bills will be considered by the full committee and Senator 
Byrd and I will determine the timeliness of when we will hold 
any hearings concerning the override or consideration of the 
President's impoundment actions under the line item veto bill.
    Let me call on Senator Byrd, please.


                    statement of hon. robert c. byrd


    Senator Byrd. Thank you, Mr. Chairman.
    The time constraints as written in the act are pretty 
tight. I commend you for holding this hearing on a matter of 
profound constitutional implications for this body and for the 
working relationship between the Congress and the executive 
branch. And in the long run it will have profound implications 
for this country. It is doubly important in that it involves 
matters directly bearing on the national security of the United 
States.
    On Monday the Congress and the American people were 
informed that a list of 38 projects included in the military 
construction appropriations bill, recently passed by both 
Houses of Congress by the duly elected representatives of the 
people, had felt the slash of the President's veto pen through 
the vehicle of this strange and cumbersome, and may I add 
illegitimate gimmick dubbed the line item veto.
    The administration cited three criteria which had 
supposedly governed the use of the President's line item veto 
pen. The first criterion was that the project was not included 
in the President's fiscal year 1998 budget request. Now I would 
point out that the committee did approve virtually all of the 
President's budget request in fashioning the military 
construction bill.
    The committee acted responsibly in its area of expertise to 
include items that were already in the Department of Defense's 
5-year plan, and moved projects up in time that were considered 
urgent or very meritorious, or to fill shortfalls in quality of 
life projects, or in Guard and Reserve projects that are 
traditionally shortchanged by the administration--any 
administration, every administration, Republican and 
Democratic--in full anticipation that Congress would fill in 
the shortfall.
    That practice has been going on for years, and without 
congressional action on Guard and Reserve matters those forces 
would long ago have been reduced to levels that would put into 
question their place in our Nation's defense preparedness.
    I point this out to highlight the fact that the budget is 
not perfect and the administration does expect the Congress to 
supplement the budget with projects that enhance the Nation's 
capabilities.
    The second criterion used by the White House in justifying 
its veto list was that the project was not a quality of life 
project, such as housing, dining, clinics, child care or 
similar family oriented facilities. Many such facilities were 
added by the subcommittee to improve what the subcommittee 
found was an inadequate budget submission in these areas.
    Thus, the administration concedes in this manner that its 
budget submission was not perfect and the committee has a role 
in improving the quality of its product and the quality of life 
of our service members.
    The third part of the required three-part so-called 
criteria which we were given as justification for the lineouts 
is not, in fact, relevant to most, if any, of the projects 
selected for this veto. The third criterion which we were 
informed was applied to each project selected was that the 
project was not executable--that is, could not begin 
construction in fiscal year 1998.
    But all of the projects included in the fiscal year 1998 
Senate-passed bill were, by standards set by the subcommittee 
itself, in consultation with the Armed Services Committee, 
executable in fiscal year 1998. The subcommittee was so 
informed on each and every project by no less an authority than 
the Department of Defense.
    Now I was called on Monday by the Director of the Budget, 
Mr. Raines to inform me that the project at Camp Dawson, WV, 
was on the veto list. I informed Mr. Raines said that the 
material provided to me by the Department of Defense stated 
clearly in black and white that this project could be executed 
in the third quarter of fiscal year 1998, and Mr. Raines said 
that was not his understanding.
    This led me to wonder and leads me to wonder where the 
White House is getting its information. The Camp Dawson project 
clearly can begin construction in 1998, fiscal year 1998, and 
indeed the cost of the project would only be greater if it were 
delayed.
    The Department has conceded the value of the project in 
that it is included in the Department's 5-year plan. I told Mr. 
Raines that. He did not believe it. He wanted me to send him 
down the papers from which I was reading. We sent them down. He 
said he would get back to me. He did not.
    It appears to me that the method of deciding which projects 
would be vetoed and which would not is basically capricious and 
that there is only a flimsy rationale for the selection. I 
conclude that the White House appears to be more intent on 
flexing its new-found power than in making any considered 
judgment regarding the merits of the array of projects included 
in the bill.
    I was informed by the Department of Defense that the 
project at Camp Dawson, WV, was indeed executable in 1998. I 
was told that construction could begin by the third quarter of 
fiscal year 1998. Now, by virtue of inclusion on the infamous 
hit list, I am suddenly advised that it is not executable. 
Thus, the standard of executability in fiscal year 1998 by the 
White House as a litmus test for inclusion on the President's 
hit list flies in the face of the Defense Department-sanctioned 
architecture of the bill itself as passed.
    All of the 38 projects vetoed, in fact, did meet that third 
criterion. Therefore, according to the administration's own 
litmus test not one of those projects was eligible to be vetoed 
and should not have been included on the list, thus making the 
criteria, that particular criterion, and in many cases the 
other two criteria, a sham.
    I have railed against this abomination, this gimmick, this 
illegitimate legislative end run around the Constitution for 
years. I have carried that battle. I have said so from the 
steepletops. And it did not make any difference to me whether 
it was a Republican President or a Democratic President. That 
has nothing to do with it.
    I have railed against it, and I am proud of my constancy on 
that issue. I did not vote for that horror, and I wonder how 
some Members who did vote for it, made the very unwise choice 
to support it, are feeling now that their legislative 
initiatives have felt the line item meat cleaver. And if their 
items did not feel it this time, there is more to come.
    There are several appropriations bills to be sent to the 
President's desk, and I have no doubt that he will use the line 
item veto on it. So get ready.
    Now I recognize that the decision to include or not include 
a project and the criteria that were used was not the 
responsibility of the gentlemen who are sitting before the 
committee. That was a White House decision, and it is 
abundantly apparent that there was less than full consultation 
with the Department of Defense on the part of those at the 
White House who recommended to the President that the cuts be 
made. And so it is the responsibility of those who are at the 
White House in the White House cutting room.
    Now I ask unanimous consent, Mr. Chairman, that the 
statement made by President William Clinton at the time the 
line item veto was announced in the Oval Office on October 6, 
1997, be included at the conclusion of my remarks.
    [The information follows:]

           Remarks by the President in Line Item Veto Message
                                   The White House,
                             Office of the Press Secretary,
                                   Washington, DC, October 6, 1997.

    The President. Good afternoon. Today we take another step on the 
long journey to bring fiscal discipline to Washington. Over the past 
four and a half years, we've worked hard to cut the deficit and to 
ensure that our tax dollars are used wisely, carefully and effectively. 
We have reduced the deficit by 85 percent even before the balanced 
budget legislation passed. The balanced budget I signed into law this 
summer will extend our fiscal discipline well into the next century, 
keeping our economy strong.
    But to follow through on the balanced budget, government must 
continue to live within its means, within the framework established in 
the agreement. The line item veto, which all Presidents of both parties 
had sought for more than a century, gives the President a vital new 
tool to ensure that our tax dollars are well spent, to stand up for the 
national interests over narrow interests.
    Six days ago, I signed into law the Military Construction 
Appropriations Act, a $9.2 billion measure that is vital to our 
national defense. Today I'm using the line item veto to cancel 38 
projects inserted into that bill by the Congress that were not 
requested by the military, cannot make a contribution to our national 
defense in the coming year, and will not immediately benefit the 
quality of life and well-being of our men and women in uniform. The use 
of the line item veto saves taxpayers nearly $290 million and makes 
clear that the old rules have, in fact, changed.
    I want to stress that I have retained most of the projects that 
were added by Congress to my own spending request. Congress plays a 
vital role in this process and its judgment is entitled to respect and 
deference. Many of the projects I have chosen to cancel have merit, but 
should be considered in the future. This is simply the wrong time.
    The projects I have cancelled are all over the country, in the 
districts of lawmakers of both parties. These are tough calls involving 
real money and hard choices. I cancelled the projects that met three 
neutral and objective criteria:
    First, the Department of Defense concluded that these projects were 
not a priority at this time, after conducting its own rigorous, massive 
planning process. Judgments about our defense needs made by military 
professionals must continue to be the basis of our national defense 
budgeting.
    Second, the projects I am cancelling do not make an immediate 
contribution to the housing, education, recreation, child care, health 
or religious life of our men and women in uniform. Our fighting forces 
and their families make extraordinary sacrifices for us, and I have a 
longstanding commitment to improve their living conditions. I have, 
therefore, left untouched a number of extra projects not requested this 
year because they fulfill that commitment in enhancing the quality of 
life of our men and women in the service.
    Third, I am cancelling projects that would not have been built in 
fiscal year 1998 in any event; projects where the Department of Defense 
has not yet even done design work. In short, whether they're 
meritorious or not, they will not be built in the coming year in any 
event.
    In cancelling these projects, I was determined to do nothing that 
would undercut our national security. Every penny of our defense 
dollars should be used to maintain and improve the world's strongest 
system of national defense.
    Also, under the balanced budget, however, we have the added 
obligation, again I say, to ensure that taxpayer funds are expended 
wisely. The use of the line item veto here will ensure that we focus on 
those projects that will best secure our strength in the years to come.
    Let me say finally that the work of protecting taxpayers in 
reforming the government must continue. I will scrutinize the other 
appropriation bills, using appropriate criteria in each instance, and 
will exercise the line item veto when warranted. And I will continue to 
fight for bipartisan campaign finance reform.
    Tomorrow the members of the Senate must decide: Will they move 
forward with a bipartisan campaign finance reform bill, or be derailed 
by a partisan poison pill? The American people will be watching. If 
they make the right choice, this can, indeed, be a banner week for 
reform in our government.
    Thank you.

    The Chairman. Thank you.
    Senator Byrd. I have some questions, but I will await the 
statements of other members.
    The Chairman. Yes, sir; let me call on the subcommittee 
chairman, Senator Burns.

                     STATEMENT OF HON. CONRAD BURNS

    Senator Burns. Thank you, Mr. Chairman, and thank you for 
convening these hearings.
    I, along with a lot of us on this committee and, of course, 
Members of the Senate was disappointed to learn on Monday that 
the President had identified 38 projects for elimination. It is 
my strong belief and it was my strong belief at the time we 
passed the conference report, meeting with the chairman and 
ranking member of the Appropriations Committee in the House, 
and after Senator Murray and her leadership as ranking member 
on this committee, that we had passed a balanced, credible bill 
which reflected the priorities of the Department of Defense, as 
they have articulated them to us over this past year.
    Our committee carefully reviewed each project to ensure 
that it met the criteria that we use to screen these types of 
projects, and it was done every step of the way.
    We also closely consulted with the military services to 
ensure that their highest priorities were addressed in this 
bill. When 33 of the 38 projects were in the Department of 
Defense future year defense plan, it is clear to me that we 
were right on target. I also want to emphasize that every 
project was authorized by the Armed Services Committee--every 
project.
    Since I became chairman of the subcommittee 3 years ago, my 
focus has been improving the quality of life for service 
members and their families. We made a significant effort to do 
that in this bill by allocating 42 percent of the total funding 
to family housing, a total of $2.1 billion. Additionally, we 
provided another $1 billion to fund construction of barracks, 
for child development centers, for medical facilities for our 
troops, and, more importantly, we have done this without 
sacrificing the mission of readiness.
    This bill reflects a reduction of almost $2 billion from 
the amount that was appropriated in 1996, a reduction of 22 
percent over the last 2 years. So we have not been derelict in 
our duties in trying to bring the spending down and staying 
within the reaches of the budget agreement. We are being 
responsible by continuing to bring down the Federal spending, 
but in a very responsible manner.
    These 38 projects reflect a combination of quality of life, 
of safety, of readiness, and infrastructure enhancement 
initiatives. A good number of them would significantly improve 
the day-to-day working conditions for our men and women in 
uniform. They are the ones that are being shortchanged here by 
this President's veto, not the officials in the Pentagon or the 
White House. The veto sends a clear message to those who serve 
the country that they do not count.
    I am even more familiar with our Montana facilities. The 
President vetoed improvements for our dining facility at 
Malmstrom Air Force Base. If the President were to accept my 
invitation--and it still stands today--to have lunch there, he 
would see a facility badly in need of repair, and I mean 
really, because this building was put up for another purpose 
and was changed into a dining facility almost as an 
afterthought. And in some areas of it I am thinking that it 
would flunk the most basic of health inspection procedures.
    It is disappointing that the President tells the American 
public that these 38 projects could not be executed this fiscal 
year. On each and every project the Pentagon confirmed that 
they could, in fact, be initiated.
    Again, I look forward to hearing the witnesses today, and I 
especially appreciate working with Senator Murray as ranking 
member on this committee as we completed the conference report. 
No report had more agreement in our negotiations than this 
conference report did.
    I appreciate you holding these hearings. Thank you, Mr. 
Chairman.
    The Chairman. Senator Murray, as ranking member.

                     STATEMENT OF HON. PATTY MURRAY

    Senator Murray. Thank you, Mr. Chairman. I want to thank 
you for convening this hearing on the President's decision to 
utilize the line item veto on 38 projects that were approved by 
this Congress.
    As the ranking member of the Military Construction 
Subcommittee, I want to remind my colleagues and the 
administration that we did use stringent criteria in funding 
Milcon projects, criteria that appears to be tougher than that 
applied by the administration. And I would remind my colleagues 
that the military construction conference report was adopted by 
a 97-to-3 vote.
    Further, the fiscal year 1998 military construction budget 
was cut by $600 million over the previous fiscal year. I am a 
cosponsor of this resolution to overturn the President's action 
on the Milcon bill. This is the first opportunity for the 
President to utilize the line item veto, and the Appropriations 
Committee is going to have to get used to this new Presidential 
authority. I accept that reality.
    But the Congress has a responsibility to ensure the 
administration is thorough, responsive, and fair in applying 
that line item veto. And in terms of being thorough, I think 
the record is fairly clear. On the other hand, the White House 
process was severely flawed.
    Congress has a role in the process, including funding 
projects that exceed the administration's request. The 
administration invites congressional adds. Their budgets are 
drafted with full knowledge that Congress will supplement the 
budget request to meet the country's needs. Military 
construction is a perfect example of the administration 
underfunding priority needs.
    For years, Democratic and Republican administrations have 
purposely invited congressional rewrites of the Milcon bill. 
For example, the administration's fiscal year 1998 request for 
the Guard and Reserve was once again wholly inadequate. The 
Guard was reduced by 42 percent and the Reserve by 30 percent 
over fiscal year 1997 funding levels. Of course the Congress 
responded, adding moneys for a variety of projects, some of 
which are on the administration's list.
    The Army's budget request for new housing construction was 
reduced by 53 percent over 1997 appropriated levels. The Navy 
reduced funding for new housing construction funds by 44 
percent. And the Marine Corps sought moneys that would allow it 
to solve the marine housing deficit by the year 2088. That is 
91 years from now.
    Mr. Chairman, the Military Construction Subcommittee has 
sought to meet the important quality of life needs of our 
personnel. That has certainly been my objective on the 
subcommittee, and I know that Chairman Burns feels similarly.
    Mr. Chairman, thank you for scheduling today's hearing. I 
stand ready to work with you, Senator Byrd, Senator Burns, and 
this committee to protect important congressional prerogatives.
    The Chairman. Well, I thank the subcommittee chairman and 
ranking member for their statements.
    Let me say in my time I cannot remember a military 
construction bill being so noncontroversial until now. It was a 
bill that was very, very well prepared and it actually strained 
out a lot of projects I thought should have gone forward. But 
you both did an excellent job and the full committee approved 
it unanimously, as I recall.
    Does any other Senator wish to make a statement?
    Senator Domenici. I do.
    The Chairman. Senator Domenici.

                    STATEMENT OF HON. PETE DOMENICI

    Senator Domenici. Mr. Chairman, fellow Senators, first, 
Senator Byrd, I think you directed a question at me, because I 
am one who voted for the Line Item Veto Act.
    Senator Byrd. Senator, I did not direct the question at 
you.
    Senator Domenici. I understand.
    Senator Byrd. Or any particular individual.
    Senator Domenici. I am trying to be nice here. I am not 
trying to be argumentative. [Laughter.]
    Senator Byrd. Thank you.
    Senator Domenici. I was just going to tell you that I am 
not prepared to tell you how I feel right now in public. 
[Laughter.]
    I would like to make a couple of observations, and then I 
would like to talk about some facts. Frankly, I believe the 
line item veto, as exercised by this President and as is 
threatened on some other bills, leaves Congress in a very, very 
interesting position and leaves the President in an interesting 
position.
    First of all, the argument is presented to us that if the 
President puts a project in his budget, it is a good project 
because it is in his budget. If we approve it, there is no 
chance of it getting vetoed. It is, therefore, sanctified by a 
Presidential budget. I am very concerned to think that no other 
projects can be thus sanctified if they are Congress' intent.
    We are now working in a situation where we will soon be 
saying to the President that we will not fund his projects. 
Somehow or another we have to make the point that some of our 
projects are as good as his.
    I believe that one of these projects of mine which I will 
go into later is necessary for safety reasons at the White 
Sands Missile Range, and I have a letter from a general saying 
it. I am not sure the President knows that.
    My point on the facts. The only thing the budget did with 
reference to defense--and I have already told the chairman 
this--is to establish budget authority and outlays for the year 
1998. It established those numbers of $268.2 billion in budget 
authority and $266 billion in outlays for defense.
    Thus far the two Appropriations Committees in the two 
bodies have approved three bills that share in that funding--
the Milcon, the big defense bill which we call 051, and DOE 
defense. The President cannot say, and the press is not 
justified in saying, that these three bills combined have 
broken the budget agreement. They have not, because, as a 
matter of fact, they are within the moneys agreed upon by this 
President and the Congress in the 5-year budget plan for 
expenditures by the Department of Defense.
    Second, I hear the administration saying that we should not 
have put some of the DOE defense money into the big defense 
bill, and that in some way violates the budget agreement. Let 
me tell you, there is nothing in the budget agreement that told 
us how to allocate between the three subcommittees that get 
defense money--nothing. I have had the staff look again. So we 
did not violate anything in the budget agreement with reference 
to defense when we produced these three bills that made up the 
whole, which is the agreed upon budget number.
    Now from my standpoint, every good turn deserves another, 
and every time you decide that you want to have a bad turn, you 
cannot sit by and assume that it will never turn bad on you. I 
want to repeat. If any President assumes that an interpretation 
of the line item veto is that only the President's projects are 
clearly good enough to spend money on, then I tell you we have 
a real war going.
    Congress has no obligation to fund his projects. I can find 
nothing anywhere that says we must approve the President's 
projects. Do you, Senator Byrd? Is there anything in the 
Constitution that says we must appropriate money because a 
President put it in his budget? I do not find anything.
    So I believe this is serious business, and the President 
ought to be looking at it a little differently than to see how 
many projects he can find that are Congress'. He had better try 
to find out if they are good projects also. That is what he 
ought to try to find out.
    Thank you, Mr. Chairman.
    Senator Reid. Mr. Chairman?
    The Chairman. Senator Inouye.

                   STATEMENT OF HON. DANIEL K. INOUYE

    Senator Inouye. Thank you, Mr. Chairman. I wish to commend 
you for convening this hearing. I ask unanimous consent that my 
full statement be made part of the record.
    [The statement follows:]
             Prepared Statement of Senator Daniel K. Inouye
    Mr. Chairman, I would like to begin by thanking you for holding 
this hearing today. On October 6, 1997, the country entered a new era 
in our democracy. No longer can it be stated that Congress holds the 
power of the purse. This function is now shared with the bureaucrats at 
the Office of Management and Budget and the staff of the President.
    With the President's action, he stripped out funding for 38 
projects which had been scrupulously reviewed by the Congress and had 
been supported by an overwhelming vote in both Houses.
    The line item veto authority which Congress has provided the 
President has very few restrictions on the type of program which the 
Chief Executive can eliminate. I believe it would be fair to say, 
however, that the authors of this legislation felt it would be used by 
the executive branch to cut out wasteful projects.
    In this first instance, we can see that the authors of this 
legislation and its proponents were sadly mistaken.
    The President's advisors recommended that he veto 33 projects with 
which the Defense Department intends to proceed.
    In several cases, contrary to the information provided to the 
President, we have been told that the Defense Department was already 
spending design funds and was nearly ready to proceed with 
construction.
    I do not believe one should fault the President for his actions. 
The Congress gave him the authority to exercise the line item veto with 
few strings attached and he did. Perhaps he vetoed projects with which 
the Congress in all likelihood disagrees, but that is his prerogative.
    At this hearing, it is my hope that we can shed some light on the 
facts involved with the programs in question.
    The President was told that these projects would not be ready for 
construction during the coming year, while Congress was told that each 
was fully executable.
    I would like to address one program of particular interest to me 
and the military commanders in Hawaii. Several years ago, after 
consultation with the Commander in Chief of the Pacific, I authored a 
provision to establish a new center to study civil military relations 
and democratic institutions.
    The new institution was called the Asia Pacific Center. It was 
modeled after the Marshall Center in Europe and it is designed to teach 
military and civilian leaders of emerging democracies, and other 
countries which have not embraced democracy, about democratic 
government.
    The institution has been hailed by Secretaries of Defense, and past 
and current military leaders as a welcome addition to the Defense 
Department. While it is still in its infancy, I can say that its early 
programs have been greeted with widespread support and commendation.
    Early this year, the Commander in Chief of the Pacific Command came 
to me with a problem. At this time, the Asia Pacific Center has no 
permanent home. For three years, the military leaders in my state 
debated on where to house this institution. Late last year they 
concluded that using existing facilities at Ft. Derussy would be the 
most cost effective location.
    While the CINC was able to get $9.5 million added to the defense 
long range plan to refurbish these facilities, it would not be 
available until 2003. The CINC noted that he was paying nearly $1 
million per year to a lease commercial facility, and he questioned 
whether the Congress could act to speed up the construction project.
    I had my staff check with the Navy to ensure that the project could 
in fact be executed if Congress were to add funds in the 1998 military 
construction bill. When the Navy informed me that they could execute 
the program, I sought support from the authorization and Appropriations 
Committees for the refurbishment project.
    Both committees agreed, and the funds were appropriated.
    On Monday, the President put a stop to this with his pen. He has 
effectively told CINCPAC that he will have to wait until 2003 to get 
his new schoolhouse. I am hopeful that the Congress will vote to 
request the President to reconsider this line item veto. Based on the 
merits there was no reason to deny funding for this project. It is 
sought by our military leaders, it is for a program that they strongly 
endorse, and it will be ready to begin construction this year.
    This is only one example of a meritorious program which has been 
sacrificed to line item veto. I suspect that there may be many others.
    Again I thank our chairman for holding this hearing so that the 
facts can be made available for all members of the Senate and the 
public and I look forward to the testimony we will receive on this 
subject.

    The Chairman. Senator Craig.

                     STATEMENT OF HON. LARRY CRAIG

    Senator Craig. Mr. Chairman, let me put my full statement 
in the record. I do appreciate this hearing.
    Let me tell my colleague from West Virginia, who is not 
only a student of the Constitution but an authority on it, that 
the President's actions that brought us to this meeting, while 
I voted for the line item veto, increasingly impress upon me 
the wisdom of our Founding Fathers. I think you know what I am 
saying.
    Senator Byrd. I thought that when I voted against it.
    Senator Craig. I was sure that you would come up with the 
appropriate rejoinder.
    Mr. Chairman, we are here because of the whole of the bill 
and the specifics that impact individual States that we 
represent. You laid out very clearly, as did the ranking member 
and the chairman of the subcommittee, the criteria by which 
these projects were put in the Milcon budget.
    I must tell the President that the two projects that he 
line itemed for Idaho met that criteria--that the architectural 
and engineering design was started and were in the DOD's 5-year 
defense plan. They met the criteria to be place in this budget. 
So on that, Mr. President, you were arbitrary, and you were 
capricious.
    I cannot understand, therefore, the logic, if, in fact, 
there was any. I do understand, though, the advantage of having 
your President versus our President. I do not know of a 
Republican Senator or House Member that got called by the 
administration, but I know that most of my colleagues on the 
other side of the aisle at least got the courtesy of the call 
that they were feeling the ax along with Republicans.
    And so I would say, Mr. President, that maybe the Founding 
Fathers were tremendously wise when they never mentioned the 
executive branch of Government proposing a budget, let alone 
controlling a budget. It was only the legislative branch that 
began over the years to give the executive branch a level of 
participation in what we are involved in here.
    So, Mr. Chairman, I hope we can move forward with dispatch. 
I think we have the votes to cause this President to be less 
arbitrary and capricious in the future.
    [The statement follows:]
              Prepared Statement of Senator Larry E. Craig
    Mr. Chairman, this hearing is important not only to discuss this 
year's military construction program but to establish the Department of 
Defense's commitment to set the record straight in determining the 
future of appropriations for military construction. Although Milcon 
represents a small portion of the overall Defense budget, it is the 
only portion that touches each service member and his or her family. 
Milcon is the single element the affects everyone.
    Every type of facility and installation contributes to the quality 
of life. High quality installations contribute to personnel and family 
readiness, which translates directly to combat capability.
    That is why the success of DOD's installations is just as important 
as the next generation of new technology. Efforts to replace many 
antiquated facilities with a single facility will save future monies by 
reduced utilities and maintenance costs, necessary to operate the older 
facilities.
    The facilities that were moved forward in the Milcon process for 
Mt. Home Air Force Base are currently designed at 50 percent or more 
and could be awarded this year, if appropriated and authorized in a 
timely manner. The B-1B avionics facility is in support of the bomber 
beddown. The current avionics repair and maintenance must take place at 
Ellsworth Air Force Base in South Dakota, some 900 miles away. Every 
year that this facility is delayed, jeopardizes the defense capability 
and readiness of the Air Force's premier composite wing which is 
considered the model installation and wing for the Air Force of the 
21st century.
    The new F-15C squadron operations facility not only moves this 
function to the front line of operations, but eliminates the command 
and control problems and improves effectiveness of operations and 
maintenance coordination. It provides a relocation of the logistics 
headquarters group to the existing facility. In turn, the headquarters 
vacates a 1954 converted dormitory facility which has been planned to 
be demolished for over five years.
    I want to reiterate: in justifying the veto of both projects, 
President Clinton said, ``architectural and engineering design has not 
started''. This is incorrect. A majority of the design work has been 
done on both. The President's actions here do not meet his own 
criteria. I can only wonder if the rest of his veto items were as 
poorly researched.
    These projects are not pork. They are essential programs 
contributing to national security and improving the readiness of our 
forces. The President's veto message simply is not justified. The bill 
the Congress passed already cut spending $610 million below last year. 
The bill we passed was consistent with the bipartisan plan to balance 
the budget. The veto of these projects reflects ill conceived 
priorities, a disdain for the military and a lack of understanding of a 
total defense readiness concept.
    Mr. Chairman, I look forward to working with you to provide 
adequate funding for high quality military installations, necessary 
housing and environmental protection for our lands.
    This is the least a grateful nation can do for our service 
personnel, their families, and insure the readiness the nation demands 
of our armed forces.

    Senator Reid. Mr. Chairman.
    The Chairman. Let me go in accordance with--Senator 
Bumpers.

                     STATEMENT OF HON. DALE BUMPERS

    Senator Bumpers. Mr. Chairman, I yield to nobody in the 
U.S. Senate, with the possible exception of Senator Byrd, in my 
contempt and detest for the line item veto. In the past 15 
years, I have taken a lot of political heat for my stand, but I 
agree with Arthur Schlesinger when he said he thought in 1787 
that the greatest assemblage of minds ever under one roof were 
in Philadelphia.
    I believe that this hearing serves the purpose of bringing 
all the Members of Congress, not just the members of the 
Appropriations Committee, up short. I believe it brings an 
awareness to all of the Members of the Congress that we can go 
home and receive our pay through the mail if the line item veto 
is sustained by the Supreme Court.
    I would hope that today's hearing would be the beginning of 
an initiative in the U.S. Congress to repeal and reverse what 
we did and not wait for the Supreme Court to rule it 
unconstitutional.
    To suggest--you think of this--to suggest that only the 
President has the knowledge and the perspicacity to know what 
is best for the country--not just the Defense Department but 
the Department of the Interior, any other department of the 
Federal Government--that only the President knows what is best 
and that when he asks for it that is the final say, that 
Congress cannot tinker with it, and if you try to change his 
priorities you are going to wind up with hearings like this. It 
is an absurdity on its face.
    Finally, Mr. Chairman, I would have a difficult time voting 
to override the President's veto. He is going to veto other 
things, and I think the defense bill is in for big hits. And I 
think other bills are going to get a lot of vetoes. And I think 
the more he does that, the more pain Congress feels, the more 
apt we are to get hot right now and do something to repeal the 
line item veto legislation, which was one of the most 
impropitious bills ever passed by the Congress.
    So, as I said, I thought we made a terrible mistake. I 
stood up and voted against it. To be quite candid with you, 
everybody thought Ronald Reagan was going to be President for 
life when we did that. And I did not. And I am like Senator 
Byrd. I do not care who the President of the United States is. 
This whole thing was patently absurd, patently 
unconstitutional.
    So, Mr. Chairman, I thank you for bringing this hearing 
this afternoon and allowing all of us to say whatever we want 
to say about it. But I am hoping that the result will be not 
just to override the veto but to reverse what we did.
    Senator Reid. Mr. Chairman?
    The Chairman. You are next, Senator Reid.

                      STATEMENT OF HON. HARRY REID

    Senator Reid. There is a certain part of me that is really 
gloating right now. I knew this was going to happen. It was 
only a question of when. The Constitution which I believe in 
set forth, I think, what we should base our life here on, and 
that is separation of powers.
    This was an absolute violation of separation of powers. But 
we gave it to him. Nobody took it from us. We gave it to the 
President. Why? I mean, are we next going to crown the man 
king, or she queen? I have heard some things said here today. 
You know, what the President did is arbitrary and capricious. 
It does not matter. He can be arbitrary and capricious. Nobody 
says he has to--he can veto this stuff because he does not like 
the way somebody parts their hair or the color of their tie.
    He does not have to have a reason. It was nice enough he 
came up with, as flawed as it might be, some reasons for 
vetoing this stuff. But arbitrary and capricious? I say to my 
friend from Idaho, he can be. Nobody can stop him from being 
arbitrary and capricious.
    And I also say my friend Patty Murray said the White House 
process is flawed--not nearly as flawed as the congressional 
process. That is the problem. The congressional process is 
flawed that we handed to the President.
    Now I worked with Senator Burns for 2 years. I was the 
ranking member of this committee. We worked very, very hard to 
come up with a fair bill. We had criteria, just like they had 
criteria this year. And I think it is an absolute sham that we 
are wasting--we have these officers in the military--wasting 
their time. They should not be here. We should be out 
completing our appropriation bills.
    We should be working on things that we have on the Senate 
floor. We should not be wasting our time here on this senseless 
gesture of pandering. And I hope that we do as Senator Bumpers 
says we do. Let us not wait for the Supreme Court. Let us do 
something courageous and say we were wrong.
    Now I am going to support the veto. Whatever little 
congressional prerogative we have left, I am going to exercise 
it to the very zenith. I hope we can override the President in 
this bill. Maybe he will be a little less aggressive in some of 
the other bills that come.
    So I say to you, Mr. Chairman, thank you very much for 
convening this meeting and allowing me to say how I feel, but 
also to tell you that I, as my mom told me many times, I hope 
everybody's happy now. [Laughter.]
    Senator Bennett. Mr. Chairman?
    The Chairman. Senator Bennett.

                    STATEMENT OF HON. ROBERT BENNETT

    Senator Bennett. Mr. Chairman, I am willing to tell the 
Senator from West Virginia how I feel in public. I feel like I 
need to eat a little crow.
    I supported the line item veto. I endorsed the line item 
veto during my campaign. And one of the reasons I did, is 
because the vast majority of Governors in this country have the 
line item veto. We have it in the State of Utah. I think the 
Governor of Utah has used the line item veto once in 10 years, 
or something of that kind. And I thought it was an appropriate 
power for the President to have.
    I assumed that the same procedure would apply in the line 
item veto threat that applies in other veto threats. All of us 
have had the experience of writing legislation and having the 
administration sit down and say, if that language stays in this 
bill, the President will veto it. And then we negotiate. That 
is true of bills before the Energy and Natural Resources 
Committee on which I sit. That has been true of bills in the 
Appropriations Committee.
    The administration comes to you and says, that is veto 
bait. We have Cabinet officers come sit at these tables and 
say, respectfully, Mr. Chairman, if that language stays in this 
bill, I will have to recommend to the President that he veto 
it.
    And I assumed that that would apply to issues that would 
come under the line item veto threat. I assumed incorrectly. I 
cannot speak for the other items in this bill, but I can speak 
for the issue that relates to my State. Throughout the entire 
process, we were in full consultation and contact with the 
administration on the substance of the bill. Not once was there 
the slightest hint that the administration had any objection. 
All of the language that was drawn up, and the money that was 
proposed were cleared with representatives of the 
administration.
    And it went into the bill with the full assumption that it 
had complete administration backing. If we had had a signal 
from the administration that they did not like what we were 
proposing, that it was veto bait, we would have negotiated with 
them, as we do on everything else where the President threatens 
a veto.
    But in this instance it went entirely the other way. The 
representatives of the Department of Defense said you are in 
good shape. This is appropriate. This is fine. We had no 
warning.
    I had no assumption that any President of the United States 
would do that with the line item veto. I thought it would be a 
negotiating tool rather than a weapon after the fact. And my 
assumption was wrong. I am prepared, if Senator Bumpers and 
Senator Byrd proceed, to reconsider my previous position based 
on the experience here that in the line item veto the President 
has not proceeded with the same openness that he has with his 
straight bill veto. And that is what misled me.
    So I hope that we can put these projects back together 
again--every one of them approved by the Defense Department 
during the negotiating period--and say to the President, if you 
want to exercise the line item veto, at least do us the 
courtesy of telling us in advance what you are going to object 
to instead of springing it on us after the fact.
    The Chairman. Thank you.
    Senator Boxer. Mr. Chairman?
    The Chairman. Senator Boxer.

                    STATEMENT OF HON. BARBARA BOXER

    Senator Boxer. Thank you so much for calling this meeting.
    There is a lot of anger in this room, and I want to 
compliment my colleagues who expressed their willingness to 
work with Senator Byrd in taking another look at their vote. 
But we have to be angry at the Congress here. As one of the 
people who abhors the line item veto, because I ask myself why 
did I come here. I came here to do a job. I did not come here 
to set obstacles.
    Now it is an unpopular vote. If you ask the people do they 
like it, they always say, yes, we like it. But in truth why do 
we come here? We have to fight so hard--at least speaking for 
myself. We fight hard for our States. We have to convince 
others that what we are talking about is in the national 
interest.
    Now we go set up another obstacle for ourselves. It is like 
we woke up one day and gave ourselves a punch in the mouth, in 
the jaw, hobbled ourselves. And it does say in the law the 
President has to consult. It does not say in the law he has to 
be reasonable, or she. It does not say any of the things my 
colleague assumed would happen.
    There is always tension between the legislative branch and 
the executive branch, I say to my friend, no matter who the 
President is. In this situation, where I agree with this 
President a lot of the time, even I could not support the line 
item veto, because it is not about who is in office. It is 
about the principle of the separation of powers, the balance of 
powers, if you will.
    Mr. Chairman, I want to just explain one particular issue 
here that is caught up in this line item veto, because when I 
spoke to the administration this was what they said to me, I 
say to my friend from Idaho. They said, well, these were not in 
the President's budget. Now my kids would say, duh. Of course 
not. The President is not the only one who writes the budget 
here. He writes a budget. He gives us his leadership. And then 
we take that into consideration.
    And whether it is my Chairman Domenici here or my Chairman 
Stevens here, we go through the process and we have our own 
opinions. And one example is the Pasadena Marine Reserve 
Center, where the administration said none of these were 
quality of life issues. I take issue with that statement. The 
Pasadena Marine Reserve Center, 230 reservists use the facility 
on a given weekend. There are three showers, Mr. Chairman, with 
no heat or hot water. After the Northridge earthquake, we have 
dilapidated conditions such as leaking ceilings, cracked walls, 
and unstable floors.
    Now maybe the Congressperson from that district knows about 
that better than someone in the executive branch. So it is not 
a matter of who the President is. It is what we did to 
ourselves, and I assure you if it was a Republican President 
you would still be complaining, no doubt, because it is this 
eternal struggle between the two.
    And I look forward to working with you, my colleagues. I am 
very pleased that you are willing to take a look at your vote 
again, because I think Senator Byrd was so right on this one, 
and I hope we can reverse what we did to ourselves and to our 
communities.
    The Chairman. Well, Senators, with due respect, this is no 
place for a debating society, but I would like to take a few of 
you on some other time. This has nothing to do with passing a 
bill that the President signed. This has to do with abuse of 
power. I live in a State that has a line item veto and I served 
in the State legislature. I can never remember a flareup like 
this with the Governor of Alaska.
    This is abuse of power by a President who knows he does not 
have to face the public again. He has a bunch of people down 
there that know they will never serve in Government again, 
because most of us will not confirm anyone that is with him.
    So let us make sure we understand what we are dealing with. 
We are dealing with a raw abuse of political power, and the 
only way to deal with that is to go back and do it again. My 
grandmother used to say to me, if at first you do not get it 
right, do it over again. And that is what we are going to do. 
We are going to give him the bill back again, and we are going 
to make the record right now to justify that.
    Let me ask these three gentlemen who have come and been 
very patient with us for 45 minutes. There is a time for us to 
sort of vent our feelings. First, though, Senator Byrd had a 
comment. I am sorry, Senator. I forgot you asked me that.
    Senator Byrd. That is all right.
    Mr. Chairman, I have heard the argument that the States 
have the line item veto; why shouldn't the President of the 
United States have it? I combated that argument ad nauseam. 
Nobody heard me on the Senate floor.
    Senator Reid. That is not true. A few did.
    Senator Byrd. A few did.
    I want to tell you I know this is not the time to debate 
the political theory behind the line item veto concept, but 
Senators should understand that even though some of their 
States may have the line item veto the line between the 
separation of powers and checks and balances is more finely 
drawn at the Federal level than it is at the State level.
    Our constitutional system is based on the separation of 
power and checks and balances. And our Constitution says that 
every State in this United States shall have a republican form 
of government, but not every State has a constitution that says 
that that State's government is founded on the system of checks 
and balances and separation of power.
    There is a big difference. And I said time and time and 
time again, and so did many of my colleagues who were against 
this line item veto, that the line item veto at the States is 
not to be equated. It is not the equivalent of a line item veto 
at the Federal level.
    My State legislature, when I was in it, met once every 2 
years for 2 months only. Now there the Governor has to have 
some powers to cut budgets and make decisions, because the 
legislature is not there to make them. Do not preach to me that 
the line item veto legislation at the State level is the same 
thing as we have here.
    We operate in a different sphere--s-p-h-e-r-e--a different 
sphere at the Federal level. I do not care if they all have the 
line item veto, all the State. The Federal union of States was 
created on the basis that the power rests with the people and 
that the power of the purse rests with the legislative branch. 
It is in there. And that no law can be made by anybody other 
than the Congress. All powers to make laws rest with the 
Congress.
    I probably ought to be more critical of the people who 
advised the President on this one, more critical of them 
perhaps than the President, far more. But I said that is what 
has happened. I said that faceless bureaucrats--and I do not 
say that in derogation of bureaucrats; we have got to have 
them--but I have said that faceless bureaucrats would determine 
what projects would be line item vetoed. It would not be the 
President himself.
    Now, having said that, the fault lies with the Members of 
Congress. I will never forget the day--it was March 23, 1995--
when the Senate voted to give the President the line item veto. 
Now that line item veto passed the Senate, and went to 
conference. And the House had sent a bill to conference. These 
were two different bills. They were in conference almost 1 
year.
    But Mr. Dole--I like Mr. Dole--he was a candidate for 
President, and I have the impression that it was he who really 
got the conferees to working and got that thing out of 
conference. And on March 27, 1996, the United States completed 
the act of stabbing itself in the back by passing the 
conference report on the line item veto.
    Now I spoke until I was hoarse. Senators would not listen 
to me. They knew where I was coming from, so they did not 
listen to me. But we all are going to have to eat crow 
collectively. We did this. If we had not given the President 
this tool, he would not be using it.
    Now as far as his negotiating, may I say to my good friend 
Senator Bennett, who has the courage to say he's here to eat 
crow, may I say this. If it is a West Virginia item, I am not 
going to negotiate with the administration on it. If they want 
to veto it, lay on, McDuff. [Laughter.]
    I am not going to negotiate them. That is what I said was 
one thing that is wrong with this line item veto. You give the 
President the power. He holds a hammer over the head of every 
Member of the House and Senate, and to that extent it impinges 
upon our freedom of speech, because if we get up and say this 
about the President's nominee or some action he takes, you can 
rest assured they have a way of getting even, and they just 
might try it.
    But I say this now, I say it here in the committee, and I 
will say it to the White House or anywhere else. If they want 
to line item veto an item from West Virginia, I will not 
negotiate. That is what they want us to do. They want Members 
of Congress to negotiate. I have never seen--I have never seen 
congressional leaders sit down and negotiate with 
administration people after the subcommittees have held their 
hearings, marked up the bills, taken all these things into 
consideration, including the administration's objections--and 
we know what they are--before we mark up the bill.
    And we need to know how they feel. It helps to guide us. 
But once the subcommittees have done their work, Senator 
Domenici, once your subcommittee has done its work and you have 
spent hours and days and weeks in hearings and marking up the 
bills, and you know all those things, you know what they object 
to, if it is the collective judgment of you and your 
subcommittee that that item ought to be in there, it should be 
put in.
    Then, for them to come up here when the conferences are 
working on these things and say now that is veto bait, if you 
do not change this, it will be veto bait, I say go ahead and 
veto. You know what your rights are under the Constitution. 
Veto. We know what our rights are. It is too late then to come 
up here and threaten.
    So, as far as I am concerned, it is too late for 
negotiations at that point. But I say here and now and I say it 
on the record, if they want to veto a West Virginia item, they 
can go to it, and I will have my say afterwards. But I am not 
negotiating.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. I would remind all 
concerned that the Constitution specifically says the 
legislative power is vested in the Congress of the United 
States, and that the President, he may recommend to the 
consideration of Congress such measures as he shall judge 
necessary and expedient.
    But I am trying to just say this. We have not exercised 
some of the power we have got. I would hate to be a 
Presidential nominee waiting for confirmation right now, and I 
would hate to be someone who is waiting for an act of Congress 
that is necessary to start a new program. You know? We are not 
all eunuchs. The Constitution made the Congress a very strong 
body in a national democracy, and we are here to consider again 
the abuse of power.
    Now let me get back where I was. Gentlemen, I thank you 
again for your patience. I have before me the list of the 
projects from your individual services, so let me just ask each 
of you this. First let me read to you what Mr. John Hamre, the 
Under Secretary, sent to me. He said the administration used 
three criteria to decide to use the line item veto on 
individual projects in the fiscal year 1998 military 
construction bill.
    The project was not requested in the President's fiscal 
year 1998 budget, it would not substantially improve the 
quality of life for the military service members and their 
families, and it would not likely begin construction in 1998.
    Now we had gone to the trouble of asking each service to 
review the projects, so let me ask you, General Lupia, is there 
any project that was in this list that--and I am talking about 
now the 33 that were on the long-term program for the 
Department of Defense. There are five that were not, so I am 
not addressing those yet. The 33 that we did review with the 
Department, which were in the Senate-passed bill, are any of 
those that meet the criteria I just listed?
    Were any of them either not requested in the budget, would 
not substantially improve the quality of life for military 
service members or their families, and would not begin 
construction in 1998?
    They went in to say because the Department reported to the 
office that no design work had been done on it. Are any 1 of 
those 33 that are Air Force projects subject to those 
restrictions?
    General Lupia. Mr. Chairman, the Air Force had 13 projects 
of the 54 added by the Congress that were line item vetoed.
    The Chairman. Yes.
    General Lupia. Thirteen of those were line item vetoed. 
Sir, all of those 13 projects were in our 5-year defense plan. 
None of the 13 were in the President's budget. But they were 
all in our 5-year defense plan.
    The program years varied. Some were in the year 2000 out to 
the year 2003. Of the 13 items, quite frankly, sir, there is 1, 
a dining hall at Malmstrom Air Force Base, that I am having a 
little bit of trouble with determining why the project did not 
qualify as a quality of life project, and I was not in on the 
decisionmaking, so I do not know what criteria was used.
    The Chairman. It is all three criteria, General. Was it 
capable of being executed in 1998?
    General Lupia. Yes, sir, executed, it was, sir.
    The Chairman. But you had trouble finding whether any 
design work had been started?
    General Lupia. No, sir; I have the information on design 
work. What I was saying was I have trouble understanding why 
the Malmstrom dining hall did not qualify as a quality of life 
project, and again I do not know who made the decision or how, 
but it is, in fact, a project that supports 700 of our airmen 
who eat in the dining hall at Malmstrom.
    The Chairman. Well, it was my understanding if it satisfied 
any one of those three criteria it was not supposed to be on 
the list. That was what I was informed. Quality of life 
projects were taken out. Those in the President's budget were 
taken out. And those that already had design work and could be 
executed in 1998 were taken out, and the balance were supposed 
to be those that were vetoed.
    Were there any of those that did not have one of those 
three criteria, as far as the Department of Air Force is 
concerned?
    General Lupia. No, sir.
    The Chairman. General Gill, how about your service, the 
Army?
    General Gill. Mr. Chairman, we had 44 projects that were 
accelerated by Congress. I believe 14 were line item vetoed. Of 
those 14 projects, 12 were in the 5-year, the future years 
defense program; 2 were not. We were asked whether or not they 
had begun design, and we reported that all of those projects 
were not under design. Now we made errors on two of those 
reported. But we reported that they were not under design. 
Those 14 projects were not under design at that time.
    Earlier we had been asked by Congress last spring whether 
or not these projects were in the FYDP and could they be 
executed in fiscal year 1998. You can debate what execution 
means. We reported in all cases that they could be executed. To 
me as a budget person or as an engineer, that means award of a 
contract.
    The Chairman. Yes; that is what we understood, too, 
General.
    General Gill. Nobody ever clarified that.
    The Chairman. But two of them have some question as to 
whether that design work has actually been done. The design 
work I think was added in at an earlier time. Were either of 
those two quality of life projects?
    General Gill. No, sir; they were operational projects. One 
was a National Guard aviation support facility in Rapid City, 
SD, and in this case the design work is done by the State, and 
the action officer in the National Guard Bureau and the State 
Guard representative miscommunicated and we provided the wrong 
information to OSD. The State had actually begun some design 
work, but had been reported as zero percent design.
    The other case was at Fort Campbell, KY, a vehicle 
maintenance shop. This was the result of a project that was 
phased and, in fact, the design had been done completely in the 
earlier phase 1. The data base did not carry the design as 
being completed for phase 2. Phase 2 was accelerated. It was 
reported as not designed when, in fact, it is at 100 percent.
    The Chairman. Thank you very much.
    Admiral, I would ask you the same question about the Navy 
and Marine projects, please.
    Admiral Amerault. Yes, sir; sir, all but 3 of the 12 
projects that were line item vetoed in the Navy were in the 
FYDP, in the years 2000 to 2003, some in the out-years of the 
FYDP.
    We reported that all could be executed. That is under the 
definition that executable means to us a construction contract 
could be let in the fiscal year. We reported that they could 
all be executed in fiscal year 1998. And none of them were 
quality of life.
    The Chairman. Now I am not going to ask about the other 
five, because I do not have the information about them, as a 
matter of fact, myself, and I think those were initiated in the 
House and the House will reinitiate those if it so desires.
    Let me go back to each of you with just one more question, 
and then I am going to see if other members have questions.
    I want your judgment, General, whether each of the projects 
that were vetoed, in every case, the Air Force projects, is the 
project an essential Air Force project to meet your mission?
    General Lupia. Sir, the projects are essential to the Air 
Force and they are in our 5-year defense plan. In terms of 
budget constraints, some of them are in later years than we 
would like to have them, but they are of military value. Each 
of the projects vetoed would enhance operations at the 
respective installations, but their deferral to a future year 
does not undercut national security.
    The Chairman. Well, I can answer that one. We had extra 
money because of the budget agreement. Not extra. We had an 
increase in money, more than we anticipated, so we reached out 
and brought projects from the later years of the defense plan 
into this year in order to use that money so we used it on 
projects that have already been approved for the mission of the 
Department of Defense.
    Now all of the ones we selected meet that definition, as 
far as you are concerned--being essential for your mission?
    General Lupia. Yes, sir; and they are in our 5-year defense 
plan.
    The Chairman. Let me ask you the same question, General. 
Are they all essential to the mission of the Army, the ones 
that were vetoed?
    General Gill. I think categorically I can say that those 
that are in the FYDP were essential. It is my judgment--and you 
asked my judgment--that those which fell within the FTDP, 
appear to be essential facilities for the accomplishment of the 
Army's mission. They would have been moved forward had there 
been enough room in our budget. Some of them would have come 
forward; others would have been gotten to later. It was simply 
a matter of how many dollars we had and our internal 
prioritization.
    The Chairman. Thank you. The same question to you, Admiral.
    Admiral Amerault. Yes, sir; we reported that, whether or 
not these projects were militarily essential in our response to 
questions from OSD, we reported in all cases that they were, 
with the exception of those three that were not in the FYDP. We 
were not asked that question for those three.
    Their placement within the FYDP was simply a matter of 
budget priorities, affordability, and so forth.
    The Chairman. The timeframe of affordability within the 5-
year plan. Thank you much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Which witness would be conversant with the item in West 
Virginia, the Camp Dawson item?
    General Gill. Sir, that is an Army project.
    Senator Byrd. All right. General Gill, was this project 
included in the Department of Defense future year defense plan?
    General Gill. Yes, sir; it was in fiscal year 2002.
    Senator Byrd. That is exactly what I told Mr. Raines.
    Will this project enhance readiness, safety, or working 
conditions for service personnel?
    General Gill. Yes, sir, all of the above.
    Senator Byrd. Has the site been identified for the project?
    General Gill. Yes, sir.
    Senator Byrd. Has any money been spent on the design of the 
project?
    General Gill. I do not have knowledge of that, sir. This is 
a State project and States design these projects, with the 
approval of the Army Assistant Secretary for Installations and 
Logistics, who tells them go ahead and begin your design. So I 
do not have knowledge of any design funds being expanded on 
this project, but I do not know that absolutely.
    Senator Byrd. The design contract was signed in August. Can 
you begin to execute this project during fiscal year 1998? I 
believe you have already answered that in the affirmative.
    General Gill. Yes, sir.
    Senator Byrd. Were you consulted on including this project 
on the veto list?
    General Gill. Sir, a member of my staff was asked whether 
or not design had begun, and we reported it had not. We did not 
have the same information that you have just provided, that 
there was some design begun in August.
    Senator Byrd. But there were three criteria. One had to do 
with, was it on the 5-year defense plan?
    General Gill. That is correct. It was. It was reported as 
affirmative.
    Senator Byrd. I was told by Mr. Raines it was not. And he 
wanted me to send down the papers from which I was reading, 
which I did. I have already indicated that.
    But it is clear to me, Mr. Chairman, that the right hand 
did not know what the left hand was doing in this situation. 
That is embarrassing to the administration, but it is just what 
some of us thought would happen.
    I want to thank you again for holding this hearing. If this 
were the only bill that we would have to face this situation 
on, it would be one thing, but we are going to have to face 
this many times, and we are going to have to have these people 
up here away from their work many times, and we are going to 
have to have Senators away from their other duties many times--
just what I said would happen--take the time of the Congress 
needlessly.
    And we have to do our whole work over and over again. We 
have come to a pretty sorry pass.
    Thank you.
    The Chairman. You are right about that. If I am informed 
properly, Senator, we should expect somewhere between, I would 
say, 200 and 400 line item vetoes in the defense bill.
    Senator Domenici.
    Senator Domenici. I will go very quickly. I think the 
project at Kirtland Air Force Base, that is yours, General 
Lupia. I understand that this project was included within the 
defense future year defense plan. Is that true?
    General Lupia. Yes, sir; it was in 2002.
    Senator Domenici. Is this project mission-essential within 
the context of the plan?
    General Lupia. Yes, sir, it is.
    Senator Domenici. Has a site been identified for this 
project?
    General Lupia. Yes, sir, it has.
    Senator Domenici. Has money been spent on the design of 
this project?
    General Lupia. Yes, sir; we have already invested $350,000 
in beginning the planning and design of the project.
    Senator Domenici. Can you begin to execute this project 
during fiscal year 1998?
    General Lupia. Sir, we can execute it, the definition being 
contract award in 1998, yes, sir.
    Senator Domenici. Thank you, Mr. Chairman. Thank you, 
General.
    The Chairman. Senator Domenici. Pardon me, you are 
Domenici. Senator Inouye. [Laughter.]
    Senator Inouye. Thank you very much. Before I proceed with 
my questions, I would just like to make an observation.
    As a result of this committee's action a few years ago, 
when the administration requested six F-117's, we felt it was 
not enough. We asked for 40. Imagine if they had line itemed 
that one. We would still be in Desert Storm.
    The Chairman. How about the Osprey?
    Senator Inouye. The Osprey, the administration suggested to 
us it was veto bait. Today it is the centerpiece of the Navy 
and the Marine Corps.
    We also decided that since we had nothing to counteract 
theater missile defenses we came up with the Patriot. That was 
on its way out. If we had not provided the money and if he had 
line itemed that one, I do not know what would have happened, 
sir.
    The Chairman. You can add the C-17 to that too.
    Senator Inouye. We can add the C-130 also, and a whole list 
of these things that began with congressional initiatives.
    The Chairman. And all of those were congressional add-ons.
    Senator Inouye. Admiral, if I may ask, my staff indicated 
the Navy had every intention of executing construction of the 
Asian Pacific Center.
    Admiral Amerault. Yes, sir; sir, that project is in the 
FYDP in the year 2003. We had spent no military construction 
planning and design funds on that project. That is what we 
reported on September 26. Since that time, the A&E contract for 
preparation of an RFP was awarded on September 30, 9 days ago. 
Since then $145,000 has been obligated.
    Our anticipation was the earliest construction contract 
award would be in the third quarter of fiscal year 1998.
    Senator Inouye. Can you assure the committee that you 
received no instructions from Navy or Defense or any other 
administrative leadership directing you to add or delete any 
item to protect any particular region or location?
    Admiral Amerault. I can certify that we have not been asked 
to do anything of the sort.
    Senator Inouye. Can you assure the committee that, to the 
best of your knowledge, political interests were not a factor 
in selecting the items for line item veto?
    Admiral Amerault. I can assert that we were not asked to 
make any judgments with regard to political or any other 
consideration on any of these projects except to report status 
of design status, executability in fiscal year 1998, and 
military essentiality.
    Senator Inouye. So your files would indicate that we have 
already expended $145,000 for design?
    Admiral Amerault. Within the last 9 days, sir.
    Senator Inouye. And you are ready to move in the third 
quarter of the next fiscal year.
    Admiral Amerault. We anticipate that we could award that 
contract in the third quarter of 1998.
    Senator Inouye. I thank you.
    The Chairman. Senator Craig.
    Senator Craig. Thank you much, Mr. Chairman.
    Let me do a similar action, General Lupia, on the two items 
vetoed--Mountain Home Air Force Base, the B-1 avionics 
building. What is its current status?
    General Lupia. Sir, we reported in April 1997 that the 
project was zero percent designed. We are today reporting 10 
percent work that has been accomplished since then.
    Senator Craig. So design activity is fully underway?
    General Lupia. Yes, sir, that is correct.
    Senator Craig. Location?
    General Lupia. The site has been identified, no problem 
with the site, no environmental problems. The project is in the 
Air Force's 5-year defense plan in the year 2000. So we had 
already planned to spend 1998 design money to get it going. We 
spend 2.5 percent 2 years out, and then 6.5 percent on design 1 
year out. We have already invested in the project.
    Senator Craig. How essential is this to the overall beddown 
of the B-1's at Mountain Home?
    General Lupia. Sir, this project is essential to the 
beddown. We have been using workarounds and will continue to do 
that, but it is essential to the beddown.
    Senator Craig. The F-15 squadron operations facility, what 
is the status of that, to your knowledge?
    General Lupia. Sir, that project is in the Air Force's 5-
year defense plan in the year 2002. So we reported that we have 
not begun design. But this is again back in April 1997.
    Senator Craig. Is it true design has begun? We are informed 
by the commander out there that design has been done, and 65 
percent by November.
    General Lupia. This past November, sir?
    Senator Craig. This coming November.
    General Lupia. This coming November?
    Senator Craig. Yes.
    General Lupia. Sir, I have the project today at 10 percent 
designed, that we have invested $140,000, and, quite frankly, I 
cannot tell you if it will be 65 percent by November.
    Senator Craig. So both of these are clearly within the 5-
year plan, design work has begun, locations have been 
determined.
    General Lupia. No environmental problems, sir.
    Senator Craig. No environmental problems, viewed to be 
essential for mission?
    General Lupia. Yes, sir.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Faircloth.
    Senator Faircloth. Senator Bennett.
    The Chairman. Senator Bennett.
    Senator Bennett. Thank you. I must indulge in a little 
hometown business and recognize that Admiral Amerault and I 
share degrees from the University of Utah.
    Admiral Amerault. Yes, sir.
    Senator Bennett. He was not born and raised in Utah, but 
chose to go there to school.
    Senator Craig. Senator, did he learn to sail on the Salt 
Lake?
    Senator Bennett. I sincerely hope not.
    Admiral Amerault. I already knew, sir. I was the racing 
commodore of the Great Salt Lake Yacht Club while I was there.
    The Chairman. You bit into that one, didn't you? 
[Laughter.]
    Senator Bennett. Yes.
    My concern, of course, is with the Army, and, General Gill, 
I understand your previous answer to the chairman you indicated 
no design money had been spent with respect to Fort Douglas and 
the Reserve facility there. Is that your understanding?
    General Gill. Sir, that is my understanding. I have no 
information on design money being spent. But I have already 
been corrected once.
    Senator Bennett. We will be happy to help you on that. The 
design is 35 percent complete, and I do not think that that 
happened in a vacuum. I think somebody paid some payroll 
somewhere. The design is underway and 35 percent complete as of 
this point, with the expectation, I am told from Utah, that the 
final design contract would be let relatively quickly.
    We have a circumstance that is a little different from the 
rest of these projects. The Washington Post, in talking about 
it, began its story with one word--``oops''--with respect to 
the circumstance in Utah. You are aware of the fact that there 
is a timeframe on this caused by the coming of the Olympics to 
Utah in 2002?
    General Gill. Sir, I have been informed.
    Senator Bennett. You have been informed. All right.
    Mr. Chairman, for those who are interested in this 
circumstance, this is land that is left over, if you will, from 
a military facility that has been closed, Fort Douglas. The 
Reserves are currently occupying it, but the long-term goal is 
that this land will be turned over to the University of Utah, 
be used by the University of Utah for educational purposes and 
be deeded to the State.
    There is no hurry in doing that, except that the University 
of Utah pointed out that if they are going to be the location 
for the Olympic village in 2002, they need the land now in 
order to build the dormitories for the athletes which will 
become then the Olympic village.
    And in negotiations with the Reserves over a period of 
several years a timetable was worked out, and this 
appropriation would have handled the moving of the Reserves 
from this land to State land, where the National Guard 
currently holds forth, and it would simply be an acceleration 
of the time pattern that had already been set down by the 
Congress and the Defense Department in previous years.
    And I understand, sir, that this is indeed in your long-
term program? Your FYDP it is down for 2003?
    General Gill. That is correct.
    Senator Bennett. 2003 will be a little late for the 
Olympics that takes place in 2002, which is why it was 
accelerated. Is it your understanding that this project could, 
in fact, be executed in fiscal year 1998?
    General Gill. There is discrepancy in the cost. There is 
one cost. There is $12 million of it was accelerated into 
fiscal year 1998. There is some disagreement with the Army 
Reserve as to whether that funds the entire project or not, 
but, sir, that part of it could be executed.
    Senator Bennett. So the part that is in the bill could be 
executed in fiscal year 1998?
    General Gill. Yes, sir.
    Senator Bennett. I just call your attention to the fact 
that if this gets delayed and then goes forward at some future 
year, the athletes are going to show up in 2002, whether we 
have beds for them to sleep in or not. And the whole 
anticipation of doing this thing in advance was to see to it 
that this land would get transferred to the State on a more 
accelerated pace so that it could become part of the Olympic 
village.
    This was explained to the Defense Department, and we had 
full concurrence from those people with whom we worked that it 
was a good idea to move this up in advance.
    Thank you, Mr. Chairman.
    The Chairman. Senator Faircloth.
    Senator Faircloth. Thank you, Mr. Chairman. I have some 
somewhat nonspecific questions. But let me ask you, the sum 
total that was line itemed out was how much money? Do you know?
    The Chairman. $287 million.
    Senator Faircloth. How much does it cost us a month to stay 
in Bosnia?
    General Gill. I can only do some arithmetic on the U.S. 
Army's cost of staying over there. It is about $150 million. 
That is the extra cost of doing that contingency operation.
    The Chairman. The total cost is $2 billion to $3 billion a 
year, Senator.
    Senator Faircloth. So it is costing the veto amount 1 month 
to stay there, roughly the cost of 1 month.
    Admiral Amerault. That is not too bad an estimation, sir.
    Senator Faircloth. It is very, very close.
    We are spending $280 million, roughly, a month to be in a 
place we never should have been, and we are talking about 
extending it. And yet the President cuts out $280 million in 
military construction that includes necessary training for the 
military.
    There is no logic to it. Let's talk about the project in my 
State for urbanized training. Are we going to be fighting fewer 
battles in the future in urbanized areas or more?
    General Gill. Common wisdom says more.
    Senator Faircloth. What?
    General Gill. Common wisdom says there will be more 
military operations in urban terrain.
    Senator Faircloth. Well, do you think it was a good idea to 
cut out an urbanized training facility?
    The Chairman. Senator, I have to restrain you and say that 
these gentlemen are here on the basis that we will not ask them 
to defend or oppose the President's judgment as their Commander 
in Chief.
    Senator Faircloth. Thank you. I did not know that. I sure 
do not want them to have to defend it. [Laughter.]
    The project at Fort Bragg is 35 percent designed.
    General Gill. I do not show that, sir. Let me look at the 
numbers here.
    Senator Faircloth. What do you show?
    General Gill. It is shown as a fiscal year 2001 project, 
and no design done. That is the information I have been 
provided on that.
    Senator Faircloth. Well, Fort Bragg provided that it was 35 
percent designed.
    All right. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    [The statement follows:]
             Prepared Statement of Senator Lauch Faircloth
    Thank you, Mr. Chairman, I appreciate your calling this hearing to 
complete the record on the Military Construction appropriation bill for 
1998. The President has just lined out 38 projects which the Congress 
supported after we determined their importance. This hearing will give 
us the opportunity to go over these projects in more detail, and 
afterward, I'm sure, it will be clear why these projects should stay in 
the budget.
    I strongly disagree with the criteria chosen by the President. His 
first criterion implies that projects not requested by the 
administration, the so-called congressional adds, are ``pork.'' At this 
point, those projects got further scrutinized and could only get off 
the ``pork'' list if they are far enough along in their designs or are 
aimed at ``quality of life.'' After all the hard work that I know this 
committee did to achieve the proper level of funding for the proper 
projects that are essential if we are ever to turn around our slipping 
military infrastructure, I object to our decisions being categorized as 
unnecessary under such simplistic criteria.
    I am particularly disappointed to hear that the President has 
canceled military construction funding for the Military Operations in 
Urban Terrain (MOUT) Training Facility at Fort Bragg.
    It is highly ironic that at a time when this President seems to 
want to send American troops just about anywhere to conduct so-called 
``peacekeeping,'' he has vetoed the exact tool that our soldiers need 
to prepare for those missions. The 82nd Airborne is the light infantry 
force that does the door-to-door building checks in the cities and 
villages.
    Perhaps President Clinton and I have different priorities, but I 
haven't forgotten Mogadishu. We should not be short changing training, 
especially when urban guerrilla warfare is one of the main threats that 
our men and women on the ground are facing every day in Bosnia.
    I wonder if the President is aware of the condition of the current 
urban training site at Fort Bragg. These pictures show the sorry 
situation. The current facility is falling apart and has become a 
safety concern. And if the President is concerned about ``quality of 
life,'' I would mention that ``quality'' should apply to our soldiers' 
working conditions as well as to their housing conditions.
    The MOUT training facility also meets the President's ``design'' 
criterion. This training facility will use the same design that was 
used for the urban training facility that was built at Fort Polk, LA, 
several years ago. All that needs to be completed is the Fort Bragg 
site specific modifications, and those are well underway. Construction 
at Fort Bragg can start in the late spring.
    This is a project that is long overdue and one our men and women 
fully deserve.

    Senator Domenici. Mr. Chairman?
    The Chairman. Sir?
    Senator Domenici. Mr. Chairman, could I put two documents 
in the record with reference to a project?
    The Chairman. You certainly may. Without objection, we will 
put them in the record.
    Senator Domenici. I do not want to ask the Generals about 
the White Sands launch revitalization complex of $6.9 million, 
but I have a letter from the commanding general, Brigadier 
General Laws, which indicates that failure to do this 
constitutes an extreme safety hazard, and a point paper from 
the White Sands Missile Range that indicates that if this is 
not replaced, in that part of the facility that is infested 
with roaches--excuse me, with rats, there is apt to be 
hantavirus exposure, and this would have been taken care of by 
this particular funding.
    I would like those two documents in the record.
    [The information follows:]
Letter From Brig. Gen. Jerry L. Laws, Commanding General, Department of 
                    the Army, Department of Defense
                       U.S. Army White Sands Missile Range,
            White Sands Missile Range, New Mexico, August 18, 1997.
Honorable Joe R. Skeen,
House of Representatives,
Washington, DC.
    Dear Mr. Skeen: This information is provided in response to your 
question on the health and safety matters at launch facilities at White 
Sands Missile Range. As you are aware from your recent visit to White 
Sands Missile Range (WSMR), extensive parts of our infrastructure, 
particularly the vital launch complexes, are in disrepair or are 
unserviceable. Many of these conditions entail critical safety and 
environmental problems that earnestly must be addressed as soon as 
possible.
    Recently, we were required to disconnect the water supply that 
feeds a fire suppression system at a major missile assembly building 
due to uncontrollable and excessive plumbing leaks. We have many 
buildings at these launch complexes with inoperable heating and cooling 
systems. We also have septic systems that have or are failing, and will 
have to be deactivated due to environmental reasons. The resource 
reductions of the last several years have exacerbated the already 
significant backlog of maintenance and repair to the aging 
infrastructure of WSMR.
    Aside from the increasing difficulties for our personnel to 
accomplish the critical test and evaluation mission for major programs 
of all the services in DOD, I am very concerned for their safety and 
health from working in such conditions. I deeply appreciate your 
consideration of these issues.
            Sincerely,
                                             Jerry L. Laws,
                  Brigadier General, U.S. Army, Commanding General.
                                 ______
                                 
point paper--revitalize launch complexes (mca project no. 47830), white 
                    sands missile range, new mexico
Health and safety issues
    The revitalization efforts are to correct serious health and safety 
situations. WSMR is utilizing a missile assembly building (daily) that 
has an inoperable fire suppression system due to major leakage. WSMR 
employees are working in buildings which have failing septic systems. 
WSMR is presently utilizing buildings at these launch complexes which 
do not have heating and cooling systems. Personnel are potentially 
exposed to hanta virus due to infestation of rodents below existing 
structures.
Obligation schedule
    Construction contract can be obligated by fourth quarter fiscal 
year 1998.
Project development
    Scope of work and cost estimate completed by contractor and 
validated by in-house personnel.
    6,700 square feet new construction.
Project design
    Project did not make the programming cut off line in fiscal year 
1997, consequently design was not started previously. Design is 
presently at the 10 percent level.

                     additional submitted statement

    The Chairman. The subcommittee has also received a 
statement from Senator Shelby which will be included in the 
record at this point.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    I want to thank you, Mr. Chairman and Senator Byrd, for holding 
this hearing. Charting a course of action in the aftermath of the line 
item veto possibly may be the most important issue this committee 
confronts this year. I voted for the Line Item Veto Act, and I still 
believe in its promise to curb wasteful, duplicative, and unnecessary 
spending. None of those adjectives applies, however, to any of the 38 
projects that were cut from the Military Construction Appropriations 
Act. The committee members and staff carefully evaluate requests for 
additional military construction projects, considering questions such 
as:
    Is the project in the Future Years Defense Plan?
    What is the current design status?
    Can the project be executed in the fiscal year?
    Is the project mission essential?
    Though the President states that these projects failed to meet his 
purported criteria, the committee already has closely scrutinized every 
request to ensure that these criteria and more are satisfied. 
Therefore, this was a careless and capricious application of the line 
item veto. It was not a deft act of political courage or budgetary 
acumen; instead, it underscores the fact that the Administration, after 
5 years in office, still does not have a coherent military strategy and 
is not willing to provide sufficient resources to an anemic defense 
budget. Instead of rationalizing cuts to a shrinking defense budget, 
the Administration should join Congress in acting responsibly by 
providing the military with the resources it needs to remain the 
world's finest.

                         conclusion of hearing

    The Chairman. Thank you very much.
    We have reached the time when we must end this hearing. I 
want to thank the three of you as general officers for coming. 
This is a new procedure. We all have to establish some new 
procedures.
    We will hold a hearing of this type on every one of the 
line item vetoes. We will await the outcome of the vetoes on 
the Department of Defense bill.
    If the veto pen is used to the extent that I have heard 
that it will be, I will join with anyone else who wants to 
introduce a bill to repeal the line item veto.
    Thank you very much.
    [Whereupon, at 3:25 p.m., Thursday, October 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

                                   (all)
</pre></body></html>
